1a
APPENDIX A – LIST OF AMICI CURIAE
Melsahn Basabe
University of Iowa
Basketball
Plays in the Baloncesto Superior Nacional in
Puerto Rico
Walter Bond
University of Minnesota
Basketball
Former NBA Player
Morgan Chall
Cornell University
Gymnastics
2x Ivy League Champion
Division I Student-Athlete Advisory Committee
(SAAC) Chair
Catherine DeSilvester
Augusta University
Volleyball
Peach Belt Conference All-Academic
Kelly Dopke
University of Idaho
Soccer
First-Team All-Big Sky
Academic All-American

2a
María Fassi
University of Arkansas
Golf
NCAA Champion
LPGA Tour Player
Jake R. Gibbons
Texas A&M University
Swimming
Southeastern Conference (SEC) SAAC Chair
Kate Hall
University of Georgia
Track and Field
2x NCAA Champion
U.S. Champion
Sarana Hyatt
Sacred Heart University
Track and Field
4x All-New England
Alfrie “Tre” Kelley III
University of South Carolina
Basketball
First-Team All-SEC
Plays in the NBA G League
Olivia Lubarsky
Towson University
Gymnastics
EAGL All-Academic Team

3a
Cody J. McDavis
University of Northern Colorado
Basketball
Division I SAAC Representative
Darren McFadden
University of Arkansas
Football
2x Heisman Runner-Up
Former NFL Player
Christopher Monroe
The George Washington University
Basketball
Former EuroLeague Player
Jamie Redman
Yale University
Rowing
2x NCAA Champion
Olympic Alternate
Wallace Spearmon Jr.
University of Arkansas
Track and Field
2x NCAA Champion
2x Olympian
Kendall Spencer
University of New Mexico
Track and Field
NCAA Champion
Division I SAAC Chair

4a
Kara Winger
Purdue University
Track and Field
2x Olympian
2x U.S. Champion

